HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility
of Blue Cross and Blue Shield of Nebraska,"(A-05-04-00061)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross
and Blue Shield of Nebraska," (A-05-04-00061)
December 2, 2004
Complete
Text of Report is available in PDF format (165 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine
the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments, attributable to Blue Cross and Blue Shield
of Nebraska (BCBS of Nebraska), contained in a database of payments made under the administrative responsibility of nine
Medicare fiscal intermediaries (FIs).  Our review of the database estimated that $78,352 of ineligible SNF payments
were made under the administrative responsibility of BCBS of Nebraska during calendar years 1997 through 2001.  The
overpayments occurred due to the absence of an automated cross-check, within the Centers for Medicare and Medicaid Services
(CMS) Common Working File and the FIs claims processing systems, verifying that a three consecutive day inpatient hospital
stay occurred prior to SNF admission.  BCBS of Nebraska has been instructed by the CMS not to seek recovery of overpayments
identified during our audit and as a result, no recovery activities have been initiated.